<html>
<title> - BUSINESS MEETING WITH INFORMATION GATHERED</title>
<body><pre>[Senate Hearing 116-201]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-201

                            BUSINESS MEETING
                       WITH INFORMATION GATHERED

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

        MEETING MAY 6, 2020; INFORMATION GATHERED APRIL 22, 2020
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                 
        Available via the World Wide Web: http://www.govinfo.gov
              
              
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-523 PDF                WASHINGTON : 2020               
              
              


              COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 6, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  and Boozman, Hon. John, U.S. Senator from the State of 
  Arkansas, prepared statement...................................     9
Cramer, Hon. Kevin, U.S. Senator from the State of North Dakota, 
  prepared statement.............................................    11
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................    19
Sullivan, Hon. Dan, U.S. Senator from the State of Alaska........    22
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   792
Duckworth, Hon. Tammy, U.S. Senator from the State of Illinois, 
  prepared statement.............................................   793

                              LEGISLATION

URL/Web address to the text of the amendment in the nature of a 
  substitute for S. 3591, America's Water Infrastructure Act of 
  2020...........................................................    10
Senator Cramer Amendment #2 to S. 3591, To include a provision 
  relating to water supply.......................................    13
URL/Web address to the text of the amendment in the nature of a 
  substitute for S. 3590, the Drinking Water Infrastructure Act 
  of 2020........................................................    18

                          ADDITIONAL MATERIAL

Information gathered on April 22, 2020, for this business meeting    26

 
                            BUSINESS MEETING
                       WITH INFORMATION GATHERED

                              ----------                              


                         WEDNESDAY, MAY 6, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Shelby, Ernst, 
Cardin, Markey, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this meeting to 
order.
    Today, the Committee is voting on two bipartisan 
infrastructure bills: America's Water Infrastructure Act of 
2020, and the Drinking Water Infrastructure Act of 2020.
    The bills are ideal complements to the bipartisan highway 
bill that the Committee has already reported with a vote of 21 
to nothing. Together, America's Transportation Infrastructure 
Act and these two bills will be critical to our economic 
recovery after the immediate pandemic response is behind us.
    I want to specifically thank Ranking Member Carper, 
Subcommittee Chairs and Ranking Members Capito, Cardin, Cramer, 
and Duckworth for their ongoing tireless efforts to craft these 
two important bills.
    Senator Carper and I have agreed that we will begin voting 
at roughly 10:15. At that time, I am going to call on Senator 
Cramer to bring up his amendment, and then we will turn to the 
agreed upon amendments and final passage of the bills.
    Once we begin voting, we will not debate the other items in 
the agenda while we are voting. Instead, we will debate the 
items on the agenda before we begin voting. I will also be 
happy to recognize any members who still want to talk about any 
issues that they have concerns about after voting concludes.
    America's Water Infrastructure Act of 2020 is bipartisan 
legislation and includes input from every member of this 
Committee and the Senate as a whole. The bill will help grow 
the economy, cut Washington red tape, and keep communities 
safe.
    The legislation provides $17 billion in new Federal 
authorization for Corps and EPA projects and programs. It will 
help deepen nationally significant ports, it will maintain the 
navigability of inland waterways, it will fix aging dams and 
irrigation systems, and upgrade wastewater systems across the 
country.
    The bill will increase water storage in the West and help 
build new flood management infrastructure in the Midwest.
    Many flood protection projects in the heartland are not 
funded because their property values are not as high as 
property values on the coasts. Our bill will make it possible 
for these important projects, including those in rural and 
disadvantaged areas, to get funded and built.
    It also includes new water storage provisions to study, 
construct, or enlarge small water storage projects. Many States 
in the West, like Wyoming, want the ability to provide more 
water for farmers and ranchers. Our bill will enable the 
construction of smaller reservoir projects and expand existing 
reservoirs in these States.
    Too often, important water projects are delayed because of 
drawn out environmental reviews. America's Water Infrastructure 
Act of 2020 cuts Washington red tape. It will push the Army 
Corps to take just 2 years to complete its feasibility studies 
for potential projects. The goal is in line with the standard 
President Trump has set for Federal infrastructure projects and 
permits.
    Our bill will also allow other agencies, Federal agencies, 
to review Army Corps categorical exclusions, and if 
appropriate, adopt some more categorical exclusions. These 
exclusions will get needed projects started faster.
    Many communities also need assistance complying with 
burdensome environmental laws and regulations. The legislation 
increases funding for technical assistance and training 
programs for small, rural, and tribal municipalities.
    The bill also includes important provisions to help smaller 
rural communities leverage Federal dollars and waive cost share 
requirements so that they can implement needed infrastructure 
projects.
    America's Water Infrastructure Act of 2020 also makes 
safety a priority. In recent years, we have seen the damage 
that floods and droughts can cause. Our bill takes steps to 
address the maintenance backlog of dams, levees, and reservoirs 
that protect so many communities around the country. The bill 
also contains provisions to fight the threat of invasive 
species.
    Drinking water systems are also critical. The Drinking 
Water Infrastructure Act of 2020 provides an estimated $1.25 
billion in Federal authorizations to help communities ensure 
their drinking water is safe. The bill reauthorizes the Safe 
Drinking Water Act Emergency Fund to provide assistance to 
communities facing drinking water emergencies.
    Our legislation requires 20 percent of the Drinking Water 
State Revolving Funds be used on grants, no interest loans, or 
debt relief, to help public water systems. The provision will 
give struggling systems a chance to provide safe and reliable 
drinking water to their communities.
    The bill also makes it simpler for schools and childcare 
programs to test for lead in their drinking water.
    I want to thank all the members of this Committee for their 
hard work in writing these bills. The bills before us today 
will support our recovering economy, will cut Washington red 
tape, will help keep communities safe, and will improve 
Americans' quality of life.
    President Trump has called on Congress to pass 
infrastructure legislation. Our highway infrastructure 
legislation, combined with these two water infrastructure 
bills, will answer the President's call to help revive our 
Nation's economy once we have moved beyond the immediate health 
crisis.
    I would now like to turn to Ranking Member Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I am delighted to be here with you and our colleagues, 
especially on the day when we celebrate the birthday of our 
dear friend, Richard Shelby.
    Happy birthday, Richard.
    We are gathered here today, and it doesn't look like our 
regular room, does it? I could get used to this; it is pretty 
big. I don't know how long we will have to use it, but I am 
glad it is available for us today.
    Here we are, wearing masks, attempting to maintain at least 
6 feet of separation between us, and I am reminded that these 
are far from normal times.
    Before we turn to two pieces of very fine legislation whose 
consideration brings us here today, I want to first express my 
thanks to you, Mr. Chairman, for your leadership, and to every 
member of this Committee. Every member of this Committee has 
contributed to the products that we are going to be debating 
and voting on here today.
    I think most members of the U.S. Senate, not all, but 
almost all members of the U.S. Senate, have contributed as 
well, but we are grateful for all that input that has been 
provided to enable our majority and minority staff to draft the 
legislation that is before us.
    I was talking to John Kane coming in, who has worked as 
sort of the lead on our side for putting this baby together, 
these two pieces of legislation together. I said, ``How do you 
feel, John?'' He said, ``I am exhausted,'' and he is probably 
not the only one who is exhausted. I just want to say to 
everyone, on our staffs, Democrat, Republican, majority, 
minority, thank you so much for your hard work.
    I would note that the U.S. Senate has returned to work in 
Washington, DC, today, while the rest of this city and much of 
our country remain under stay at home orders due to the COVID-
19 pandemic that continues to ravage many communities across 
America.
    I spoke to one of the Capitol police officers outside in 
the hall to ask her about how many Capitol police officers have 
been stricken, may have been found carrying the virus, and I 
was surprised how many of our Capitol police officers have 
actually had the symptoms and then had to be quarantined and 
treated.
    Last month, we learned that--speaking of the city--last 
month, we learned that here in this city, African Americans 
account for almost 80 percent of COVID-19 related deaths. 
Eighty percent. In fact, we are reminded almost daily by news 
stories that communities of color are disproportionately 
impacted by harmful air pollution, which is a co-morbidity of 
this disease.
    In recent weeks, studies have consistently shown a link 
between air pollution and higher numbers of COVID-19 related 
deaths. Sadly, despite these findings, EPA has answered the 
President's call to be all hands on deck in this fight largely 
by seeking to roll back major public health protections for 
clean air.
    So as our Committee moves forward on two important 
bipartisan pieces of legislation today, I hope we will all 
continue to be mindful of our responsibility as Senators to 
conduct oversight on the Federal Government's response to the 
ongoing COVID-19 pandemic. In doing so, we also have an 
opportunity to highlight some of the science and innovation 
that can help us overcome this deadly pandemic.
    For example, I was reading this, Mr. Chairman, was reading 
this morning about how COVID-19 virus can be detected in 
wastewater in ways that might be able to help us almost as 
looking over the horizon to know that this is coming.
    This is technology; this is science that actually goes back 
to the days of polio, when we were concerned about stopping the 
spread of polio in this country. This technology is probably 
able to be brought to bear currently, and we are interested in 
seeing that happen.
    The COVID-19 pandemic has also reminded us that access to 
clean water and public health are critically connected. In 
addition, we are reminded daily, almost hourly, it seems, just 
how important it is to have access to soap and clean water and 
washing our hands, a simple yet effective way to prevent this 
virulent disease.
    Now, Mr. Chairman, that brings us to our focus today, and 
that is improving and investing in our country's waterways, as 
well as our drinking water and wastewater infrastructure 
systems. Our country's drinking water and wastewater systems, 
our shipping channels, and flood control structures are 
essential to our economy and to our way of life, but they 
remain in desperate need of improvement and investment.
    I was talking to a reporter and trying to explain why this 
is relevant. In the Declaration of Independence, we all know it 
talks about life, liberty, and the pursuit of happiness.
    It is hard to have life without water, clean water that we 
can drink. It is hard to have happiness without a strong 
economy, and when we are talking about moving goods and 
products around this country and around the world, a lot of it 
goes on water, overwhelmingly does. Stuff goes on water in and 
out of our country, so it is critically important.
    America's Water Infrastructure Act of 2020 and the Drinking 
Water Infrastructure Act of 2020 are two bipartisan bills that 
will help the U.S. Army Corps of Engineers and the EPA continue 
to make more of the urgently needed improvements to key water 
infrastructure systems throughout our country.
    Every American relies on water and on our water 
infrastructure, most without realizing it. Millions of 
Americans across this country rely on the Army Corps projects 
to safely navigate our waters, to stay safe from flooding and 
storm damage, and reap the benefits of healthy aquatic 
ecosystems in marshlands.
    In communities across America, Army Corps projects are 
often the silent engines that power local economies, too. For 
example, in Wilmington, Delaware, the Port of Wilmington 
supports, I am told, more the 19,000 jobs in our region, 
several States. It is the United States' top seaport for fresh 
fruit imports as well. If you ate a banana this morning, it 
probably came through the Port of Wilmington.
    The Army Corps is working diligently with our port on an 
expansion project that will open a channel to a new containment 
facility in Edgemoor, just a couple miles north of our current 
Port of Wilmington on the Delaware River. The Army Corps is 
responsible for dredging and maintaining access to this new 
channel, which over time will support more commerce and more 
jobs for the region.
    In addition to authorizing the necessary projects, 
America's Infrastructure Act will also improve agency 
transparency and accountability for the budgeting, conduct, and 
completion of Federal projects. Our Committee has heard that 
the Corps' arcane benefits-cost analysis, which the Corps 
relies on to prioritize projects, often fails to capture the 
critical needs and true economic benefits of projects in 
smaller, coastal, rural, disadvantaged, and tribal communities. 
This legislation addresses those problems.
    Meanwhile, too many of our communities are facing 
significant water contamination. America's Water Infrastructure 
Act reauthorizes the Clean Water Revolving Loan Fund for the 
first time since 1987, which I think is pretty close to the 
time of your birthday, your original birth, Senator Shelby. 
Anyway, I find that so many of our communities use that to 
improve their wastewater systems.
    In the Drinking Water Bill, we authorize more than a half-
billion dollars to provide critical drinking water 
infrastructure through the Small and Disadvantaged Communities 
Grant Program.
    We also continue our work to address PFAS, commonly known 
as the forever chemicals, because they degrade so slowly over 
time. The Drinking Water Bill expands an EPA grant program that 
became law last year to allow it to provide funds to clean up 
groundwater contaminated with PFAS, in addition to drinking 
water.
    The bill before us today also requires provisions that 
previously passed the Senate to require EPA to set a drinking 
water standard for two of the PFAS chemicals we are most 
concerned about, PFOA and PFAS.
    Finally, looking to the future, these two bipartisan bills 
will also help us to fortify our communities from the growing 
impact of climate change. The bills expand grants that will 
help small and medium sized communities increase the resiliency 
of their water systems to natural hazards and to extreme 
weather.
    Before I close, Mr. Chairman, I will just say that as far 
as we have come in reporting these bills today, we have more 
work to do before these bills are truly ready for the floor.
    I just want to mention very briefly two issues in 
particular. First, Democratic Senators want to keep working on 
this bill as it moves forward to ensure that many types of 
ports receive a balanced distribution of funds from the Harbor 
Maintenance Trust Fund. I appreciate your agreement, Mr. 
Chairman, to ensure this outstanding issue is addressed before 
these pieces of legislation go to the Senate floor.
    Second, I am troubled that we have not been able to make 
more progress on language submitted to the Committee by Senator 
Gillibrand that would ask EPA to determine whether to set 
standards under the Clean Water Act to limit the amount of PFAS 
that can be released into the environment by industry. Forcing 
water ratepayers to remove the PFAS from the drinking water and 
providing taxpayer funding to clean up contaminated sites are 
efforts made less effective if we don't also take steps to 
reduce the amount of PFAS being released into our environment 
in the first place.
    I hope our Chairman will join me in the weeks ahead in 
leading a determined effort to find a bipartisan solution on 
this effort, something that my staff and I know other staffs 
are anxious to do.
    Again, I appreciate that you are willing to ensure, Mr. 
Chairman, that these outstanding issues are addressed before 
these two pieces of legislation go to the Senate floor.
    And with that, I again want to thank everyone who has 
worked so hard to bring us here to this day.
    Thank you so much.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Today, Chairman Barrasso, Chairwoman Capito, Chairman 
Cramer, Ranking Member Cardin, Ranking Member Duckworth, and I 
are releasing two draft pieces of water infrastructure 
legislation for stakeholder review, comments, and feedback. 
America's Water Infrastructure Act of 2020 and The Drinking 
Water Infrastructure Act of 2020 are the bipartisan product of 
months of work from the Senate Environment and Public Works 
(EPW) Committee, the EPW Transportation and Infrastructure 
Subcommittee, and the EPW Fisheries, Water, and Wildlife 
Subcommittee. I thank my colleagues and their staffs for 
working in a bipartisan and transparent manner to bring us to 
this stage in the Water Resources Development Act (WRDA) 
process.
    Typically, at this stage in the WRDA development process, 
the Committee and Subcommittees would hold stakeholder 
information listening sessions and briefings. Soon thereafter, 
the Committee and Subcommittees would hold hearings to receive 
testimony from both the applicable Federal agencies and 
relevant stakeholders.
    Unfortunately, due to the ongoing challenges due to the 
COVID-19 pandemic we are unable to hold in-person listening 
sessions and briefings and must adapt our process accordingly. 
Through this information gathering process, our Committee hopes 
to gain critical insights from Members of Congress, 
stakeholders, and the general public so that we can improve 
these two bipartisan draft bills before taking any legislative 
action.
    Most Americans understand the importance of making 
improvements and investments in the infrastructure we can see, 
like our roads, highways, bridges, and airports. On the other 
hand, it is easy to overlook the infrastructure we rarely, if 
ever, see, like our pipes, shipping channels, and flood control 
structures. But if truth be known, every American relies on 
this unseen water infrastructure every day. Our Nation's water 
infrastructure is often the forgotten champion of our economy. 
It's essential to our way of life, and it's in desperate need 
of improvements and investments.
    Our Nation's ports, inland waterways, locks, dams, flood 
and coastal storm protection, ecosystem restoration, and other 
water infrastructure are critical to generating economic 
growth, facilitating commerce and trade, and protecting our 
communities from the extreme weather events that have become 
all too familiar and all the more destructive. Our drinking 
water and wastewater systems are key components to the basic 
building blocks of life and business in America. In the face of 
the COVID-19 pandemic, for example, we have realized just how 
important it is to have access to soap and clean water--a 
simple yet effective way to prevent the spread of disease and 
protect Americans from this dangerous pandemic.
    Both of these bipartisan draft bills would improve and 
invest in key water infrastructure systems throughout the 
country through the U.S. Army Corps of Engineers (Corps) and 
the Environmental Protection Agency (EPA).
    The Corps' civil works program is a critical component of 
our Nation's economy and part of the backbone of our society. 
Over 99 percent of U.S. overseas trade moves through waterways 
that the U.S. Army Corps of Engineers is responsible for 
maintaining.
    Our Nation's ports are intrinsically tied to our way of 
life. For example, if ships carrying fruits, vegetables, meat, 
or seafood are unable to reach their destination, prices at the 
grocery store will rise. If prices at the grocery store rise, 
families who may already struggle to put food on their tables 
will have to figure out how to stretch their budgets even 
further. Improving access to our ports is not just a policy 
matter for Congress, it could be the difference between a 
hungry or a healthy child.
    This draft bill makes investments in the ports and 
waterways that keep this country moving, from the Port of 
Wilmington in my home State of Delaware, to the Port of Mobile, 
to the Port of New York and New Jersey to the Tulsa Port of 
Catoosa.
    Unfortunately, we currently have a construction backlog of 
infrastructure investment somewhere in the neighborhood of $96 
billion, according to recent estimates from the Corps. 
Meanwhile, the agency's annual budget hovers around $4.6 
billion. This bill begins addressing that backlog by 
authorizing critical investments in local-Federal 
relationships, leveraging existing resources to ensure we get 
the most ``bang for our buck.''
    The bill also increases local participation, transparency, 
and accountability in the annual budget process. It's our hope 
that an increase in local participation will allow for a more 
transparent and long-term look at the Corps' activities. It 
would also help us to generate a stronger groundswell of 
support for increased appropriations for the agency's 
initiatives.
    When disaster strikes, the Federal Government has to step 
in and help--a large part of the response effort is from the 
Army Corps of Engineers under the direction of other Federal 
agencies. Many people do not realize the critical role that the 
Corps serves in responding to all sorts of emergencies, like 
the flooding up and down the Missouri River last spring.
    Even today, the Corps is hard at work helping States combat 
the novel coronavirus by constructing temporary hospitals in 
order to provide enough bed spaces for patients to receive 
treatment. This bill builds on the emergency authorities of the 
Corps and makes it easier for communities to get longer term 
assistance, rather than the quick fixes current law only allows 
the Corps to provide.
    These bills also build on the work we did in the American 
Transportation and Infrastructure Act to fight the ever growing 
threat of climate change. Rising sea levels, extreme heat, 
flooding, and storm surges are already having devastating 
effects on our water infrastructure. Our draft bill authorizes 
$10 million for the U.S. Army Corps of Engineers to develop and 
carry out a plan for the mapping of coastlines that are 
experiencing rapid changes on a recurring basis due to the ever 
worsening impacts of climate change. In addition, America's 
Water Infrastructure Act of 2020 requires the Corps to consider 
the most beneficial use of dredged material, which includes 
providing sand dunes that protect coastal communities from 
extreme weather events.
    In order to help our most vulnerable communities prepare 
for the impacts of climate change, both of these draft bills 
provide a combined authorization of $80 million for Water 
Infrastructure Resiliency and Sustainability Grant Programs, 
which award grants to small and medium sized communities to 
increase the resiliency or adaptability of water systems to 
natural hazards. America's Water Infrastructure Act of 2020 
also includes programs aimed at reducing the harmful emissions 
that exacerbate climate change, authorizing $75 million in 
funding for the EPA to reduce air pollution emissions at ports 
and wastewater treatment facilities.
    In addition to critical Corps programs, these bills also 
authorize funding for key programs at the EPA that address 
major drinking water and wastewater needs across the country. 
For the first time since 1987, the Drinking Water 
Infrastructure Act of 2020 reauthorizes the Clean Water State 
Revolving loan fund and its critical funding up to $3 billion 
annually over 3 years. This State revolving fund provides 
critical resources to States to fund wastewater infrastructure 
projects that serve communities across the country.
    There is an ongoing drinking water contamination crisis in 
communities across the country. We need to invest in water 
infrastructure wisely. This bill makes it clear that we have 
learned our lessons from crises, like the one we saw in Flint, 
Michigan. It devotes more resources to the things that are most 
important, like making sure every parent--no matter what zip 
code they live in--can be confident that the water coming out 
of their tap is safe for their children and families.
    This draft legislative package also builds on work this 
Committee has done and continues to do on per- and 
polyfluoroalkyl substances (PFAS). It provides an annual 
authorization of $300 million in grants for addressing emerging 
contaminants. It does this by increasing the funding available 
for the $100 million in annual grants that was enacted in last 
year's National Defense Authorization Act for removing PFAS 
from drinking water and also adds a new focus on cleaning up 
contaminated sites and removing PFAS from groundwater, which 
many rely upon for drinking water.
    This provision should matter to every Member of Congress; 
however, it is particularly important to me, given the growing 
concerns that I have about the groundwater contamination around 
Dover Air Force Base due to the use of these chemicals as a 
firefighting foam and industrial cleaner over many decades. I 
am also confident that the final legislation the Committee acts 
on will include the provisions unanimously adopted last year in 
the Senate to require EPA to set an enforceable drinking water 
standard for PFOA and PFOS (two specific PFAS) within 2 years. 
I hope to also continue to explore whether bipartisan consensus 
can be reached to include additional measures to prevent more 
PFAS contamination from industrial sources.
    Finally, these draft bills offer critical assistance to 
some of our Nation's most vulnerable communities. They will 
help to fortify these communities from the impacts of climate 
change, while also investing more than a half-billion dollars 
to provide critical drinking water infrastructure through the 
Small and Disadvantaged Communities grant program. America's 
Water Infrastructure Act of 2020 also offers resources to help 
lower income individuals connect their homes to existing 
wastewater infrastructure, upgrade their septic systems, or 
install new septic systems. On the Corps side, this bill makes 
several policy changes to level the playing field for 
Environmental Justice communities to ensure that more of their 
projects are selected and are able to receive full Federal 
funding.
    I want to thank the stakeholders who will engage in this 
process with us over the next 2 weeks, particularly the five 
who will participate in a written question and answer process 
with us: Niels Hansen with the Public Lands Council, Stephen 
Sandherr with the Associated General Contractors of America, 
Dan Coughlin with Sheridan Area Water Supply Joint Powers Board 
on behalf of the National Rural Water Association, Diane VanDe 
Hei with the Association of Metropolitan Water Agencies, and 
Tony Pratt with the American Shore and Beach Preservation 
Association.
    In an uncertain time like the one in which we now live, and 
in a Congress that's frequently divided, I am grateful that we 
have been able to come together to strengthen our Nation's 
water infrastructure and to support the water programs and 
reforms that are so critical to the American people's way of 
life. I look forward to receiving comments and feedback on 
these draft bills, and I look forward to the work ahead of us 
to make them even stronger.
    Thank you.

    Senator Barrasso. Thank you very much, Senator Carper.
    I would now like to turn to our Subcommittee Chair and 
Ranking Members, and we will start first with Senator Capito.
    Senator Capito. Thank you. For my statement?
    Senator Barrasso. If you would like, yes.
    Senator Capito. You know what? Why don't I save my 
statement until after we vote?
    Senator Barrasso. Certainly.
    Then, Senator Cardin.
    Senator Cardin. Well, I just really want to thank the 
leadership of the Committee. As you both have said, this bill 
represents the product of every member of this Committee. It 
has been done in a very bipartisan, open manner. It is 
critically important to our economy.
    I could talk at length about how important it is to 
projects in the State of Maryland, but I will follow the 
example of my Subcommittee chair, and defer any further 
comments.
    Senator Barrasso. Well, thank you, but I do appreciate the 
bipartisan nature, because you looked terrific last night on 
Fox News extolling the virtues of the infrastructure bill, so 
thank you for that. I appreciate it.
    Senator Cramer, anything you would like to add as a 
Subcommittee Chairman?
    Senator Cramer. Other than to just say thank you to both of 
you, for your leadership, and to the entire Committee. It is 
one of the joys of this Committee, is the bipartisan 
collaboration. So I look forward to making a longer statement 
with my amendment.
    Senator Barrasso. We will certainly do that.
    Senator Inhofe, any final comments before we move to the 
vote?
    Senator Inhofe. Just briefly. I think it is significant to 
recognize that--remember when Barbara Boxer and I took over the 
leadership back in 2014, this WRDA bill is supposed to be 
happening every 2 years, and it had been 7 years since the last 
one that we had. Since that time, it was 2014, 2016, 2018, and 
2020, so that is a major thing to get back to the way it should 
have been.
    The last thing I would mention is that a lot of people 
don't realize that Arkansas and Oklahoma are navigable States, 
and there are some things in here that are very effective for 
Senator Boozman and myself that we appreciate very much.
    Thank you.
    [The prepared statement of Senators Inhofe and Boozman 
follows:]

   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
    Oklahoma, and Hon. John Boozman, U.S. Senator from the State of 
                                Arkansas

    Mr. Chairman, we would like to say a few words about how 
critically important the McClellan-Kerr Arkansas River 
Navigation System (MKARNS) is to Oklahoma and Arkansas, and how 
Senator Inhofe's and my amendment will provide a new tool in 
the toolbox to deepen the MKARNS to its fully authorized depth 
of 12 feet.
    Arkansas and Oklahoma have been working for more than a 
decade to deepen the MKARNS, a 445-mile long system consisting 
of 18 locks and dams that provides 9-foot depth inland 
navigation from the confluence of the White River and 
Mississippi River to the Tulsa Port of Catoosa, Oklahoma. There 
are five major public port facilities, and 62 private ports and 
terminals that support the movement of the major commodities 
shipped on the MKARNS. These commodities include coal, 
petroleum products, wheat, soybeans, fertilizers, sand and 
gravel, iron and steel products, and oversized/over-dimensional 
manufactured goods.
    Deepening the MKARNS from a 9-foot channel to a 12-foot 
channel--so barges and boats can maximize the tonnage of cargo 
they can transport along this system--would result in a 40 
percent increase (630 tons per barge) in the capacity of the 
MKARNS to transport these important products for our Nation's 
farmers, manufacturers, and small businesses. This increase in 
capacity would result in estimated shipper savings of 
$43,100,000 annually, which would dramatically reduce the price 
of goods for consumers across the country. The lower cost of 
transportation would also benefit agricultural users of the 
system in States like Arkansas, Oklahoma, Texas, Kansas, 
Missouri, Nebraska, Minnesota, North Dakota, South Dakota, 
Idaho, Colorado, Montana, New Mexico, Arizona, and Nevada.
    In addition to the economic benefits of utilizing water 
resources infrastructure, by serving as maritime freight 
corridors for the shipment of goods, our inland waterways 
alleviates wear and tear to our surface transportation 
infrastructure, reduces congestion on roads and bridges, and 
allows us to transport these goods in a way that emits less 
pollutants into our atmosphere.
    A 12-foot navigation channel was authorized in 2003 
following a feasibility study by the U.S. Army Corps of 
Engineers, which found almost 90 percent of the channel to 
already be 12 or more feet deep. In 2005, Congress appropriated 
$7,000,000 to start construction of the deepening project, 
however, it was categorized as Operation & Maintenance dollars 
instead of Construction General dollars, thereby creating a 
technicality with the Corps that has now wrongly classified the 
12-foot channel as a new start rather than the continuation of 
an existing project. Thus, the Corps has not maintained the 
authorized 12-foot navigation channel.
    The Inhofe-Boozman amendment will give the Corps of 
Engineers the authority and flexibility to work with a non-
Federal interest specifically for the purpose of deepening the 
MKARNS. If a non-Federal interest would like to dedicate 
funding to this authorized project before Federal dollars 
become available, they will be able to do so sooner rather than 
later. Our amendment also provides non-Federal sponsors the 
eligibility to be reimbursed by the Corps of Engineers subject 
to appropriations.
    It is past time to get the ball rolling on this vitally 
important project, and I am confident the Inhofe-Boozman 
amendment will create a valuable mechanism to do so.

    Senator Barrasso. Thank you very much, Senator.
    Now I would like to move to vote on the items on today's 
agenda.
    I would like to first call up Barrasso-Carper-Capito-Cardin 
Substitute Amendment to S. 3591, America's Water Infrastructure 
Act of 2020, that was circulated last Friday. The Ranking 
Member and I have agreed that this substitute shall be 
considered the original text for purposed of amendments.
    Members have filed amendments to the substitute. The 
Ranking Member and I have filed Barrasso-Carper No. 1, which 
incorporates additional input from members and stakeholders. 
With the agreement of the Ranking Member, I am happy to accept 
this amendment.
    [The text of the amendment in the nature of a substitute is 
available at https://www.govinfo.gov/content/pkg/BILLS-
116s3591rs/pdf/BILLS-116s3591rs.pdf]
    Senator Barrasso. The Ranking Member and I have agreed to 
vote on Barrasso-Carper No. 1 by voice vote, but members may 
choose to have their votes recorded after the voice vote.
    Before that, Senator Cramer would like to offer an 
amendment.
    Senator Cramer. Thank you, Chairman. Let me ask for Cramer 
Amendment No. 2.
    Thank you again, Chairman Barrasso, Ranking Member Carper, 
for the collaborative way that you approach this Committee. It 
is a real joy to be part of it. I think about last year, and 
what an honor it was to work with all of you on the largest 
highway bill in the history of our country that passed with 
this incredible cooperation. It was a joy, and it is great to 
be able to add these two bills to that infrastructure ambition.
    That being said, I do have this amendment before the 
Committee to protect States' water rights, and I am asking for 
your support.
    Last year, I led a bipartisan letter asking for the 
withdrawal of the Corps' disastrous water supply rule. Many of 
you signed that letter, and thankfully, the President withdrew 
the rule, because there was bipartisan resolve that the Army 
Corps had overstepped its bounds.
    Western States span the ideological spectrum, but we were 
all united: Our water rights must be respected. Since the 
rule's withdrawal, I have worked closely with the Western 
Governors' Association, Western Attorneys General, and the 
Western Water Council to build upon this success by drafting 
legislation to address the longstanding conflict between the 
Army Corps of Engineers' application of Federal water law and 
western States' application of their water rights under the 
prior appropriation doctrine.
    The amendment before you today only applies to Section 6 of 
the Flood Control Act for States located wholly or partly west 
of the 98th meridian. To be clear, the language I started with 
was much broader, but I wanted to be cognizant of the 
longstanding water litigation some eastern States have with the 
Corps.
    This broader language, much more substantive language than 
the original amendment, is what was supported unanimously by 
every Governor and every attorney general in the western United 
States. But I included multiple safeguards into the amendment 
to accommodate others' concerns.
    It does not affect any State east of the Mississippi. Let 
me say that again, Mr. Chairman. It does not affect any State 
east of the Mississippi. It preserves all existing water supply 
contracts, and only applies to prior appropriation States.
    Just like western States want to preserve our water rights, 
we are not trying to get involved in eastern States' water 
wars. The amendment codifies the historic practice of not 
requiring a water supply contract as part of granting water 
users access to Corps reservoirs in western States.
    It is simple, but it is vital to States' rights to meet the 
water supply needs of their citizens.
    For historical context, it was the Federal Government who 
dammed our rivers and flooded our land. It seems completely 
unreasonable that the Corps would then try to federalize the 
water system and force States and water users to ask them for 
permission to access it.
    For further context, there are only 11 water supply 
contracts under Section 6 authority. One of those is in North 
Dakota.
    Even though this withdrawal was quite literally a drop in 
the proverbial bucket and was swiftly approved by North Dakota, 
it took over 2 years to complete the water supply contract 
process. I think any of us would find that unacceptable, and no 
doubt, each of you have similar frustrations in your States.
    The Flood Control Act clearly states, ``It is declared to 
be the policy of the Congress to recognize the interests and 
rights of the States in determining the development of the 
watersheds within their borders.'' It is not often an issue 
unites States ranging from North Dakota to Oregon, to Oklahoma 
to Washington. However, when States are granted a right, we do 
expect it to be observed.
    I have only been on this Committee for a little more than a 
year, but it has been a common refrain for many of you that the 
Corps is unresponsive, has overstepped its bounds, or has 
completely ignored congressional direction. We should not 
squander the opportunities we have to address some of these 
issues.
    Mr. Chairman, like me, many members of this Committee are 
from western States or served as State legislators, regulators, 
or even Governors. No matter our political stripes, we all 
understand the importance of protecting the rights granted to 
our States, and I am sure each of you agree you would rather 
have your State determine how to best serve your constituents.
    I respectfully ask you to support the amendment and look 
forward to continuing to work with each of you.
    Thank you.
    [The prepared statement of Senator Cramer follows:]

                    Statement of Hon. Kevin Cramer, 
              U.S. Senator from the State of North Dakota

    Chairman Barrasso and Ranking Member Carper, thank you for 
compiling and releasing the draft legislative text for 
America's Water Infrastructure Act of 2020 (AWIA) and the 
Drinking Water Infrastructure Act of 2020. I appreciate the 
collaborative, bipartisan nature you have fostered on the EPW 
Committee as we construct important legislation like the bills 
before us today. The draft text and this information gathering 
process is an important step to hear stakeholders' priorities, 
refinements, and concerns. I look forward to reviewing the 
input we receive through this process.
    I have been a fervent supporter of passing a comprehensive 
infrastructure package into law. We unanimously passed the 
largest highway bill in history out of Committee last year. I 
was proud to support America's Transportation and 
Infrastructure Act in support of our Nation's highways and 
bridges. Our water infrastructure is equally vital, and I look 
forward to quickly moving these proposals through the 
legislative process. Our constituents understand the importance 
of infrastructure and are counting on us to get the job done.
    As the Chairman of the Fisheries, Water, and Wildlife 
Subcommittee, I appreciate the work put into the Drinking Water 
Infrastructure Act. This bill places a high priority on rural, 
underserved areas who need help to safely and regularly access 
drinking water. It reauthorizes multiple drinking water 
programs important for North Dakota communities, especially 
those with small populations in rural areas. In addition, the 
proposal sets aside specific program funding for North Dakota's 
tribal communities to ensure they have access to critical 
drinking water programs.
    America's Water Infrastructure Act is bipartisan 
legislation with practical solutions which benefit North 
Dakotans and Americans across the country. It would create 
jobs, bolster interstate commerce, protect local communities' 
access to safe drinking water, and provide much needed 
congressional oversight and direction for the U.S. Army Corps 
of Engineers (USACE). Western States have a long fraught 
relationship with the USACE, often feeling neglected, if not 
completely ignored. Water Resources Development Act provisions 
are a critical opportunity for Congress to provide necessary 
oversight and direction to a bureaucracy often run amok. AWIA 
contains multiple provisions to transform how the USACE 
operates and interacts with States and local communities.
    As we started to draft this proposal, I reached out to 
North Dakotans to get their input. I appreciated the feedback 
and ideas I received from constituents. While not every 
priority was included, the current proposal provides 
substantial funding and reforms needed back home. AWIA includes 
approximately $17 billion in new Federal authorizations. It 
would increase water storage, provide protection from 
floodwaters, maintain the navigability of inland waterways, and 
repair aging wastewater and irrigation systems.
    Throughout this process, I have worked closely with North 
Dakota and other western States seeking to address a 
longstanding issue with the USACE's refusal to acknowledge 
States' authority. I remain committed to include bipartisan 
legislation, requiring the USACE to follow congressional intent 
by deferring to State water appropriation rights.
    Last year, I led a bipartisan group of our colleagues and 
interested stakeholders to express deep concern over the 
USACE's proposed Water Supply Rule. Thankfully, President Trump 
decided to repeal this deeply flawed rule. I am now working 
with our colleagues, especially western members, to develop 
bipartisan language to provide a permanent solution. It is 
unfortunate we could not reach a conclusion to this 
longstanding issue in time for this initial draft. The USACE 
needs to follow congressional intent and respect States' water 
allocation rights. Western States should not be held hostage by 
unrelated water wars and special interests, and I will continue 
pushing for a solution.
    Thank you for holding this information gathering session, 
and I look forward to building upon the good work we have done.

    [The text of the amendment follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you, Senator Cramer.
    Anyone else like to address Senator Cramer's amendment?
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I will be brief.
    I can understand, we all can, Senator Cramer's frustration 
with our water supply issues. This is something that my State 
of Alabama has grappled with for 30 years.
    The people in my State, the Governor, and the attorney 
general and all of them have expressed immense concern over the 
proposed language and the precedent, basically the precedent, 
that it would set despite efforts to minimize the concerns. 
Fundamentally, this amendment, as you all know, would allow 
States to preempt Federal law and Corps of Engineers projects, 
which has the potential to impact downstream States. I 
understand how he has crafted it for the West and so forth, but 
I think it is a bad precedent, and I would oppose it.
    Senator Barrasso. Anyone else like to make a comment 
regarding this amendment?
    I understand the importance of State water rights in the 
West. Water is vital for ranching, farming, and rural 
communities in Wyoming and North Dakota and the entire West. 
For years, my colleagues in the West have fought to protect our 
States' water from Federal encroachment, which is the spirit of 
this amendment.
    Unfortunately, there still remain some concerns with the 
amendment as currently drafted, and it is for that reason that 
I believe we need to continue to work on this issue and address 
the potential unintended consequences which have just been 
raised by another colleague.
    So I pledge to continue the conversation with my colleague 
from North Dakota and other members of the Committee moving 
forward, but will not be able to then support the amendment as 
drafted at this time.
    At this time, we would offer the amendment from Senator 
Cramer, and the motion would be on approving Cramer 2. Is there 
a second?
    Senator Sullivan. Second.
    Senator Barrasso. It is been moved and seconded.
    All those in favor please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, nay.
    [Chorus of noes.]
    Senator Barrasso. It is the opinion of the chair that the 
noes have it, and Cramer No. 2 is not agreed to at this time.
    I would like to now call up Barrasso-Carper No. 1, and I 
ask that members withhold discussion of this amendment until we 
complete the voting.
    I move to approve Carper-Barrasso No. 1. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor please say aye.
    [Chorus of ayes.]
    Senator Barrasso. Opposed, no.
    [No audible response.]
    Senator Barrasso. In the opinion of the chair the ayes have 
it, and Barrasso-Carper No. 1 is agreed to.
    Any other Senators seek recognition to offer an amendment? 
I see no other members seeking recognition to offer an 
amendment.
    I move to approve the substitute amendment to S. 3591 as 
amended and report S. 3591 as amended favorably to the Senate.
    We will hold a roll call vote. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mr. Braun.
    Senator Braun. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. Aye by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 21, nays are zero.
    Senator Barrasso. The yeas are 21, the nays are zero. We 
have approved S. 3591 as amended, which will be reported 
favorably to the Senate.
    Now I would like to call up the Barrasso-Carper-Cramer-
Duckworth substitute amendment to S. 3590, Drinking Water 
Infrastructure Act of 2020, that was circulated last Friday.
    The Ranking Member and I have agreed that this substitute 
shall be considered the original text for purposes of 
amendments. Members have filed amendments to the substitute. 
The Ranking Member and I have filed Barrasso-Carper No. 2, 
which incorporates additional input from members and 
stakeholders.
    [The text of the amendment in the nature of a substitute is 
available at https://www.govinfo.gov/content/pkg/BILLS-
116s3590rs/pdf/BILLS-116s3590rs.pdf]
    Senator Barrasso. With the agreement of the Ranking Member, 
I am happy to accept this amendment.
    The Ranking Member and I have agreed to vote on Barrasso-
Carper 2 by voice vote. Members may choose to have their votes 
recorded after the voice vote.
    Now, at this time, I would like to call up Barrasso-Carper 
2 and ask that members withhold discussion on this amendment 
until after we complete the voting.
    I move to approve Barrasso-Carper 2. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, nay.
    [No audible response.]
    Senator Barrasso. It is the opinion of the Chair that the 
ayes have it; Barrasso-Carper 2 is agreed to.
    Any other members, Senators, seek recognition to offer an 
amendment?
    I see no members seeking recognition to offer this 
amendment.
    So at this point, I move approval of substitute amendment 
to S. 3590 as amended and report S. 3590 as amended favorably 
to the Senate.
    We will hold a roll call vote on this. Is there a second?
    Senator Carper. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Boozman.
    Senator Boozman. Aye.
    The Clerk. Mr. Braun.
    Senator Braun. Aye.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. Aye by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Carper. Aye by proxy.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 21, the nays are 
zero.
    Senator Barrasso. Thank you.
    The yeas are 21, the nays are zero. We have approved S. 
3590 as amended, which will be reported favorably to the 
Senate.
    I want to thank the members. The voting part of this 
business meeting is concluded.
    Senator Carper. Mr. Chairman.
    Senator Barrasso. Yes.
    Senator Carper. I just wanted to say a brief word. Just to 
commend our Chair of our relevant Subcommittee, the 
Transportation Infrastructure Committee, and to Ben Cardin, our 
Ranking Member. Thank you, both of you.
    Senator Barrasso. And our new Committee spokesman now on 
Fox News, as we saw last night.
    Senator Carper. That is right.
    [Laughter.]
    Senator Barrasso. Are there members who have filed 
amendments that they did not offer but would still like to 
discuss?
    If not, I would be happy to recognize any other members, 
and I know, Senator Capito, you deferred on making your opening 
statement until after the voting was completed out of courtesy 
for the other members.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Right.
    Thank you, Mr. Chairman, and I thank everybody, members of 
the Committee, for the good, hard work.
    I want to thank you, particularly, Chairman Barrasso, and 
Ranking Member Carper, thank you, and also Senator Cardin and I 
have worked, I think, very well together with our staffs, both 
on this bill and on the highway bill that we previously passed.
    I would like to get into just some of the issues that are 
specific to my area that I think are particularly very, very 
good for my part of the country. This will reauthorize programs 
under the Corps of Engineers and the EPA that are critical to 
West Virginia. In particular, there is a provision in there 
that I authored that will establish a new program that will 
provide over $100 million for water and wastewater 
infrastructure in West Virginia and elsewhere in Appalachia. We 
are far behind, in some cases.
    This legislation increases investments in our Nation's 
inland waterway infrastructure, and if you know anything about 
the eastern part of the country and certainly, those locks and 
dams on the Ohio, Kanawha, and Mon River are extremely 
important for moving commerce and for recreational purposes. By 
adjusting the cost share for projects funded with expenditures 
from the Inland Waterway Trust Fund, a long overdue update, and 
quite welcome, to help us expedite construction.
    It also supports flood control through enhanced cooperation 
between the Corps and local communities, which is critical to a 
State like mine, again, because we have experienced 
catastrophic floods in recent years.
    And it incorporates important changes to a program I 
created along with Senator Booker that will help train the next 
generation of water and wastewater workers. I am sure all of us 
are hearing that the work force is way down in this area, and 
attracting the new work force into what can be a career in 
water and wastewater is something that Senator Booker and I 
have worked on over the last several years. These are just a 
couple examples of improvements this will make to our water 
resource infrastructure.
    I was also glad to see that some of the provisions that I 
authored are in the Drinking Water Infrastructure Act. This 
legislation authorizes several programs that will help 
community systems, such as those in West Virginia, provide 
safer, more affordable drinking water. I think Senator Cardin 
talked a lot about the importance of, in the COVID atmosphere 
that we are in now, knowing that your drinking water is safe 
and how important that is.
    My bill with Senator Cardin, the Assuring Water Quality 
Infrastructure Act, is included and will provide grant funding 
to small water systems to address the issue of water loss. I 
was astounded when I read an article in our local paper that 
talked about the 50 percent or 80 percent of water loss that 
some of these systems, because they are so old, are leaking out 
of old infrastructure. A recent report detailed that some of 
the systems, as I said, have over 75 percent of the water they 
produce leave before it even reaches the tap.
    We are lucky in our State, because as we are here today in 
the dampness of Washington DC, we do have a lot of water, 
luckily. The Drinking Water Infrastructure Act also includes 
provisions that address the issue of PFAS, something I have 
been extremely concerned about, and that contamination which 
has been a priority of mine.
    Importantly, it includes legislation I co-sponsored with 
Senator Gillibrand that mandates that EPA establish a drinking 
water standard for two legacy compounds, PFO and PFOS, which 
have been shown to cause health problems in communities across 
the country and in my State particularly. This legislation also 
authorizes funding to address the presence of PFOS and other 
contaminants in drinking water through the purchase of 
filtration systems.
    In closing, I would like to extend my gratitude to the 
staff that negotiated these bills many times in our absence, 
both with the Committee and our personal offices.
    In my office, I would like to thank Max and Travis and 
Adam. In particular, I would like to thank on the Committee, 
Brian, Andrew, Lizzy, Craig, Christina, John, Annie, Susan, and 
Mark with the Committee, and Shannon and Andrew with Senator 
Cardin's office. Their hard work and dedication is to be 
commended.
    I do look forward to the day, and hopefully this will be 
sooner than later, where we marry the two infrastructure bills 
together to serve as, I think, a great get back to work, 
rebuild America's infrastructure. The bills that we have passed 
overwhelmingly, now unanimously, through this Committee, so I 
join with you, Senator Barrasso, as the Chair and others to 
bring these to the full Committee to see this legislation 
become law.
    Thank you so much.
    [The prepared statement of Senator Capito follows:]

                Statement of Hon. Shelley Moore Capito, 
              U.S. Senator from the State of West Virginia

    Thank you, Chairman Barrasso and Ranking Member Carper, for 
the opportunity to submit a statement on the release of draft 
legislative text for America's Water Infrastructure Act of 2020 
(AWIA) and the Drinking Water Infrastructure Act of 2020. This 
draft legislation represents our continued commitment to 
strengthening our Nation's water resources infrastructure, and 
to providing Americans access to dependable water and 
wastewater services.
    The draft text of AWIA 2020 is this Committee's latest 
bipartisan collaboration to advance biennial Water Resources 
Development Act (WRDA) legislation. As Chairman of the 
Subcommittee that oversees WRDA, I was proud to negotiate this 
draft legislation with Chairman Barrasso and Ranking Member 
Carper, as well as Subcommittee Ranking Member Cardin. It 
reauthorizes programs under the U.S. Army Corps of Engineers 
and the EPA critical to communities in West Virginia and across 
the Nation. Once enacted, it will increase investments in our 
Nation's inland waterways infrastructure, support flood control 
through enhanced cooperation between the Army Corps and local 
communities, authorize millions of dollars for water and 
wastewater infrastructure in Appalachia, and help train the 
next generation of wastewater workers, among many other 
important provisions.
    I was also glad to see provisions I authored included in 
the draft text of the Drinking Water Infrastructure Act; in 
particular, legislation I introduced along with Ranking Member 
Cardin, the Assuring Quality Water Infrastructure Act, that 
will authorize funding to small public water systems to 
undertake infrastructure asset management and prevent water 
leaks while protecting ratepayers. We were also able to secure 
inclusion of our legislation to reauthorize and strengthen a 
program that funds projects to increase water systems' 
resiliency against natural hazards like flooding. In 
conjunction with other provisions such as those that provide 
resources to address emerging contaminants like PFAS, this 
draft legislation represents a significant step toward 
providing safer, more effective drinking water services for 
West Virginians and all Americans.
    Finally, I would like to extend my gratitude to the staff 
that negotiated these bills, both at the Environment and Public 
Works Committee and in our personal offices. In particular, 
Brian, Andrew, Lizzy, Craig, Christina, John, Annie, Susan, and 
Mark with the Committee, and Shannon and Andrew with Senator 
Cardin's office. Your hard work and dedication are to be 
commended.
    I look forward to hearing from our invited witnesses and 
other stakeholders as part of this process, and to introducing 
this legislation in the near future. Moving forward, I will 
work with my colleagues on this Committee and in the full 
Senate to see them become law.

    Senator Barrasso. Thank you, Senator Capito.
    Senator Sullivan, before calling on you, I want to thank 
you for your continued leadership in all areas of 
infrastructure, highways, roads, bridges, tunnels, water 
infrastructure, ports, dams, reservoirs; thank you for your 
incredible work.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
             U.S. SENATOR FROM THE STATE OF ALASKA

    Senator Sullivan. Thank you, Mr. Chairman, and I want to 
return the compliment to you and the Ranking Member. I think 
this is exactly what our country needs right now, seeing 
Senators back at work, which we all are, working in a 
bipartisan way that will help our country at the appropriate 
time, and I think it is getting very soon, to really turbo-
charge the economic recovery that we are going to need as we 
get through this pandemic.
    You mentioned the highway bill, 21 to zero by the way, out 
of this Committee, really important, super bipartisan. And then 
today with regard to the WRDA bill, legislation with regard to 
clean water, again, completely bipartisan. The combination of 
these two coming together as an infrastructure bill, 
bipartisan, it is what our country needs.
    The President certainly supports us. I have had the 
opportunity to talk to him about this, as I know you have, Mr. 
Chairman, so I want to thank you and Ranking Member Carper's 
leadership on this issue.
    Again, I think it is what we need to be doing, what the 
American people need to be seeing, progress, bipartisan 
progress on something that the vast majority of my constituents 
in Alaska, but probably all over the Nation, support: Serious 
infrastructure for our Nation to help our economy, help our 
workers, get through this crisis.
    Mr. Chairman, I want to just highlight two areas of this 
legislation that are particularly important to my State, and I 
think important in the Nation. One, as has already been 
mentioned, is the work with regard to clean water, clean 
sewers, or I am sorry, flush toilets.
    I hate to say it, but I remind this Committee a lot that 
there are communities in America, a number of them in my State, 
that don't have running water, that don't have flush toilets. 
Over 30 communities in Alaska, primarily Alaska Native 
communities, don't have what every American thinks is a basic 
amenity, that they have in their State, or in their community. 
We don't have it.
    The CDC is saying wash your hands very frequently, OK? That 
is important. How can you wash your hands if you don't have 
running water? You can't.
    And by the way, these are communities that during the 
Spanish flu, over a hundred years ago, got wiped out. My State 
had more deaths per capita than any State in the country during 
the Spanish flu because that ripped through Native communities 
and had mortality rates, in some, in the 70 percent--mortality 
rates.
    So there is a lot of trepidation in my State and in some of 
my communities right now with regard to this pandemic. But one 
thing we have to do is to be able to get running water, basic 
running water and sewer to communities in America. This 
legislation will help in that regard.
    I want to thank Senator Capito. I know this issue is 
important to her, but all the members on this matter.
    The second issue I wanted to highlight, Mr. Chairman, is 
another that relates to our economic security, but our national 
security. This legislation takes a very important step forward 
with regard to recognizing the strategic importance of the 
Arctic to our Nation.
    America is an Arctic nation. We are an Arctic nation 
because of the State of Alaska. There is a sense of Congress in 
this legislation that recognizes the strategic importance of 
the Arctic to our economic and national security and calls for 
expediting the feasibility report for the first deep draft port 
in the Arctic.
    Let me explain. Right now, in the bill, this will serve as 
a placeholder for this vital project. It is my understanding 
that the Chief's Report for the Arctic deep draft port in Nome, 
Alaska, is expected to be finalized at the end of the month. We 
are all recognizing, a number of us sit on the Armed Services 
Committee, on this Committee, that the receding sea ice, the 
opening of transportation routes, the increase in human 
activity, the increases in resource opportunities, have all 
increased the interest globally in the Arctic. Even the Chinese 
have a plan with regard to the Arctic, although they are not an 
Arctic nation.
    It is possible now to safely navigate the Arctic via the 
Northwest Passage and Northern Sea route. These routes can save 
shippers weeks in travel and are thousands of nautical miles 
shorter when compared to using the Suez Canal or Panama Canal 
routes.
    Yet, in America, an Arctic nation, we have essentially no 
strategic Arctic port that can handle any kind of serious 
shipping, any kind of Navy shipping, any kind of Coast Guard 
shipping, icebreakers.
    In fact, the closest U.S. port to the Arctic is in Dutch 
Harbor, that is Unalaska, which is a thousand miles away from 
the Arctic Circle, or the Port of Alaska in Anchorage, my 
hometown, which is 1,500 nautical miles away from the Arctic. 
Otherwise, there is nothing there.
    So, Mr. Chairman, I want to thank you and the Ranking 
Member and this entire Committee, because what will be 
happening with this legislation is that the Port of Nome will 
be positioned as a critical Arctic port that can handle 
deepwater draft ships, like destroyers, like icebreakers. This 
will be the first of what I believe will one day be a system of 
Arctic ports in Port Clarence, north of Nome, Cape Blossom near 
Kotzebue.
    But our Arctic neighbors have had a head start. As I 
mentioned, the government of China, the government certainly of 
Russia has prioritized the development of Arctic capabilities.
    The Russians have created a new Arctic military command and 
construction or refurbishment of 16 deepwater ports and 14 
military airfields. Again, the U.S., an Arctic nation, has 
none. Not one. Not one deepwater port in the Arctic, but that 
changes today.
    Our first Arctic deepwater port draft will support U.S. 
Navy and Coast Guard assets operating in the region, as well as 
provide vital support for economically challenged communities 
in western Alaska.
    Mr. Chairman, there is a lot at stake here: National 
security, economic security, the environment. But I want to 
mention also, there are 23 communities across the Norton Sound 
Region that depend heavily on the Port of Nome as a trans-
shipment point for fuel, equipment, supplies, many of them 
legitimately threatened by the high price of fuel and goods, 
and over 53 communities in my State in the broader region that 
rely on Nome as a maritime freight hub.
    Enabling this port and other ports to have ships, large 
ships that can dock there, can lower the cost of commodities, 
bringing savings to these residents in my State and the 
surrounding communities, many of whom practice a subsistence 
based way of life.
    So again, this is all in this bill. Very important issues, 
I would say, for the Nation, certainly for Alaska, and I want 
to thank the Chairman and the Ranking Member on including these 
in a very bipartisan way. It is important progress that we are 
seeing today in the Senate.
    Thank you, Mr. Chairman.
    Senator Barrasso. Well, I appreciate your comments, Senator 
Sullivan. As you talk about the role of China, the role of 
Russia now in the Arctic, I have read that China is trying to 
build another Silk Road through the Arctic, and Russia is 
trying to build a toll road through the Arctic, and the impact 
of those on the globe as well as on our own economy in America.
    So I appreciate your ongoing leadership and dedication to 
fight for these ports and the issues related to, not just your 
State, but to American security, economic as well as other 
components of security as we face a changing world. Thank you 
so much.
    Anyone else like to make any statements at this time?
    Senator Carper. I have a unanimous consent, but I want to 
thank the Senator from Alaska for an interesting and 
informative statement. It was just really a pleasure to work 
with you on this legislation, and your staff. Thank you.
    Mr. Chairman, I have a unanimous consent request, but as 
you know, we have received, I think, more than 150 stakeholder 
letters on our bills with comments during the information 
gathering process that you led over the last 2 weeks, I think 
people had until May 1st to offer their comments.
    All of the comments included statements of support for 
various provisions, helpful feedback, and additional ideas. We 
are really appreciative of that process that we are going to 
continue to work through this water infrastructure process in a 
bipartisan fashion.
    So I would ask unanimous consent to insert in the record 
for this markup the more than 150 letters we received during 
the information gathering process.
    Senator Barrasso. Without objection. I appreciate your lead 
on that, because that is right, last Friday, the Committee 
concluded the information gathering process on draft 
legislation entitled America's Water Infrastructure Act of 2020 
and the Drinking Water Infrastructure Act of 2020, Stakeholder 
Comments. This information gathering process help lay the 
foundation for the two bills that we reported out today.
    So we now have unanimous consent to enter the full record 
of this information gathering process in today's business 
meeting, and I thank you for raising that issue.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Carper. One last thank you, if I could, in fact a 
couple of closing thank yous. I already mentioned John Kane, 
who has worked so hard on this legislation with everybody, not 
just Democrats, but Republicans, with leadership staff.
    I just wanted to acknowledge and again, thank our staff 
director on the minority side, Mary Frances Repko, 
affectionately known as MF. John was joined variably by Annie 
and by Mark in the work on these projects and these pieces of 
legislation, and we are grateful to each of them. Thank you.
    Senator Barrasso. I agree. We have tremendous staff, and 
Beth is over there manning the clock and all activities, and 
Brian behind me here, Richard over here, Matt in the front, 
Lizzy in the back, Michael also in the back. They have all 
worked very hard, and there would be more people in the room 
were it not for the distancing, and they are watching and 
paying attention. But we have a tremendous staff who have 
worked very well together, and I know will continue to do that.
    I would also like to ask unanimous consent that the staff 
have authority to make technical and conforming changes to each 
of the matters approved today, and with that, our business 
meeting is concluded.
    [Whereupon, at 10:49 a.m., the business meeting was 
concluded.]
    [Additional statements submitted for the record follow:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Mr. Chairman, I am pleased to welcome the public to 
participate in this week's information gathering session on the 
current draft of this year's Water Resources Development Act 
(WRDA). WRDA is important legislation for the State of Maryland 
and the health of our economy and our environment. For example, 
the Port of Baltimore plays a key role in the economic 
competitiveness of Maryland and the country.
    The Chesapeake Bay is a national treasure whose ecosystems 
and landscapes are central to the identity and livelihood of 
our State, but it continues to face serious challenges from 
environmental degradation and climate change that must be 
addressed. I am pleased that the draft America's Water 
Infrastructure Act of 2020 that is now available for comment 
takes steps to address many of these concerns.
    In recent times, Congress has successfully passed Water 
Resources Development Act (WRDA) reauthorization legislation on 
a bipartisan basis every 2 years. This year, we have the added 
challenge of the novel coronavirus (COVID-19) pandemic, 
requiring us to collaborate at a distance. To Chairman 
Barrasso, Ranking Member Carper, and my colleagues on the 
Committee, I thank you for your work on this legislation under 
these unusual and difficult circumstances.
    Marylanders have witnessed the dangerous consequences of 
extreme weather, and we know preparation is one of the best 
ways to mitigate future disasters. We all need clean, safe 
water during good times and emergencies.
    As a country, we must better prepare our water systems for 
the increasing instances of more frequent and severe floods, 
record setting rainfall, wildfires and other natural disasters 
ahead, as well as slow onset events such as sea level rise. 
This bipartisan legislation takes important steps toward 
shoring up America's aging water infrastructure against the 
costly threat of climate change.
    The draft includes important provisions for Maryland, such 
as authorizing the construction of the Anacostia Watershed 
Restoration project in Prince George's County. It also takes 
steps to expand opportunities to use natural infrastructure and 
the beneficial use of dredged material, so that sediment 
dredged to maintain our navigation channels will not always end 
up as a waste product, but can help restore ecosystems and 
rebuild wetlands--an idea that has been put into practice 
successfully on Poplar Island in the Chesapeake Bay.
    The discussion draft includes an authorization of 
$5,000,000 for each of fiscal years 2021-2024 to create a 
Federal program administered by the U.S. Environmental 
Protection Agency to help communities strengthen the resiliency 
of their publicly owned treatment works against the threats of 
natural hazards.
    The Drinking Water Infrastructure Act of 2020 discussion 
draft reauthorizes and expands the U.S. Environmental 
Protection Agency's Drinking Water Infrastructure Resilience 
and Sustainability program at $10,000,000 total for each of 
fiscal years 2021-2024. Grants will be awarded on a competitive 
basis for activities to increase resiliency or sustainability 
such as water conservation, water use efficiency, watershed 
protection, and modification or relocation.
    When precipitation falls on roads, streets, roofs, and 
sidewalks, it can push harmful pollutants like fertilizer, pet 
waste, chemicals, and litter into the nearest waterway. This 
bill also takes innovative actions to improve the availability 
of public and private sources of funding for the construction, 
rehabilitation, operation, and maintenance of stormwater 
infrastructure to meet the requirements of the Clean Water Act.
    Urban and suburban stormwater runoff is one of the only 
major sources of water pollution that is growing in the 
Chesapeake Bay and across much of the country. Communities with 
stormwater permits include more than 80 percent of the U.S. 
population--therefore, stormwater funding is a national problem 
that requires action.
    To all of the stakeholders reviewing the legislation and 
providing us with your thoughtful input, I appreciate you 
taking the time to share your views with us. Your perspectives 
and comments are important to this process and have the 
potential to strengthen and improve upon the current draft we 
have posted this week.
    To all of you, I hope that you have been staying healthy 
and safe as you take care for yourselves and for others during 
this challenging time. I look forward to our ongoing 
communication and collaboration on this important legislation.
    Thank you.

                  Statement of Hon. Tammy Duckworth, 
                U.S. Senator from the State of Illinois

    Thank you to this Committee, particularly Chairman Barrasso 
and Ranking Member Carper, for its leadership in drafting 
legislation that makes critical investments in our Nation's 
water infrastructure.
    As members of this Committee are well aware, access to 
quality drinking and wastewater services is necessary to 
ensuring that every American has a shot at living a healthy 
life. This priority is even more important today, as millions 
of Americans have been asked to shelter in place and avoid the 
spread and subsequent injury that COVID-19 can cause.
    While I look forward to receiving input from stakeholders 
with expertise in the issues of water and related 
infrastructure, there are several provisions from these draft 
bills that I strongly support. First, I applaud that Committee 
for making a historic reauthorization of the Clean Water State 
Revolving Loan Fund and dramatically increasing its investment. 
I strongly support the Committee's efforts of making existing 
Federal programs more accessible to the communities that need 
them the most like low income, rural, and communities of color. 
By lowering or eliminating the local cost share, increasing 
funding for technical assistance and direct grants, we can 
assist these communities in their efforts to deliver quality 
drinking and wastewater services. I also believe that the 
investments in innovative technologies and reducing lead 
exposure are key provisions that are necessary to reducing 
public health threats that persist in communities across my 
home State and the Nation.
    I also want to applaud Transportation & Infrastructure 
Subcommittee Chairwoman Capito and Ranking Member Cardin for 
their leadership in advancing the America's Water 
Infrastructure Act of 2020 draft to provide for critical U.S. 
Army Corps of Engineers projects in Illinois and across the 
Midwest. As drafted, WRDA 2020 includes some of my top 
infrastructure priorities such as an Inland Waterway Trust Fund 
cost share modification that will help upgrade locks and dams 
more quickly along the Illinois and Mississippi River, helping 
farmers and other industries maintain their global 
competitiveness. At my request, the bill also authorizes the 
Brandon Road project that will help protect the Great Lakes 
from Asian carp, provide further Federal support to restore and 
enhance the Chicago River, and help distressed communities in 
flood prone areas along the Mississippi River rebuild outdated 
pump stations.
    I'm proud of the bipartisan cooperation this Committee has 
exhibited during the COVID-19 pandemic to advance this critical 
legislation and address the infrastructure needs of our States 
and communities.

                                 [all]
</pre></body></html>
